AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Operations




  Audit Report

 Restoration of the Monticello Mill Site at
 Monticello, Utah




 DOE/IG-0665                                October 2004
REPORT ON RESTORATION OF THE MONTICELLO MILL
SITE AT MONTICELLO, UTAH
______________________________________________________________________


TABLE OF
CONTENTS


                Mill Site Restoration

                Details of Finding                                  1

                Recommendations and Comments                        6


                Appendix

                Objective, Scope, and Methodology                   8
MILL SITE RESTORATION
______________________________________________________________________
Background            The Department of Energy (Department) issued a Record of
                      Decision (ROD) in 1990 for remediation of the Monticello Mill
                      Site. According to the ROD, the Department was to clean up
                      contaminated facilities and tailings and restore the mill site. The
                      restoration required placing a soil barrier to cover remaining
                      contaminated areas that could not be remediated, grading to
                      provide proper surface drainage, and re-vegetation to minimize
                      erosion. The Department's Grand Junction Projects Office had
                      originally planned to have its prime contractor, Rust Geotech, Inc.,
                      perform this work.

                           In July 1995, the City of Monticello's (City) mayor and the Site
                           Specific Advisory Board, comprised of local residents, formally
                           proposed that the mill site property be transferred to the City for
                           the purpose of developing a golf course on the property. After
                           consideration, both the Department and the Environmental
                           Protection Agency (EPA) supported the golf course concept
                           because such action would place the mill site into productive
                           public use and ensure that it would be maintained to control
                           erosion. Departmental officials also believed that it would be less
                           costly for the City to perform the restoration of the site.

                           The Department entered into a cooperative agreement with the
                           City in June 1999 that, among other things, required the restoration
                           of the mill site and certain associated areas. Pursuant to the terms
                           of the agreement, the Department was to be substantially involved
                           in the project and was to ensure that funding provided was for
                           allowable restoration-related expenses. In June 2000, prior to the
                           commencement of restoration work, the City received title to the
                           property through the Department of the Interior's Federal Lands to
                           Parks Program.

                           Subsequent to signing the agreement, but prior to the
                           commencement of restoration work, the City modified its plans to
                           construct a golf course on the site, and with permission of the
                           Department of the Interior, decided to convert the facility into a
                           public park. Both the Department and the EPA concurred with the
                           City's May 2000 change in plans.


Site Restoration           Our audit disclosed that the Department did not effectively monitor
                           or control certain aspects of the restoration of the Monticello Mill
                           Site. The restoration of the site was completed as required;
                           however, the City did not adequately maintain the site, and it
                           suffered significant erosion. The Department took action to correct
                           erosion problems that were of immediate concern, but it did not
______________________________________________________________________

Page 1                                                                    Details of Findings
______________________________________________________________________
                      ensure that the City used funds provided under the agreement for
                      long-term maintenance of the mill site.

                          In August 2000, the City engaged a contractor and commenced
                          restoration of the mill site. The restoration work entailed covering
                          the mill site with topsoil, grading the slopes, planting natural
                          vegetation, and restoring a wetland area. Consistent with its
                          agreement with the Department of the Interior, the City also made
                          efforts to convert the mill site into a public park by installing
                          gravel walkways, planting trees, and placing several picnic tables
                          on the site. At completion, the City had spent approximately
                          $2.5 million for the restoration efforts.

                          However, the City did not maintain the site as required by the land
                          transfer agreement. Shortly after the restoration work was
                          completed, the mill site began to sustain serious erosion. During
                          an inspection of the site, the EPA became concerned about the
                          increase in erosion and the lack of action to control it. EPA
                          notified the Department of this concern and the Department, in
                          turn, notified the City. The City committed to take action and
                          made several repairs. However, the City's efforts were inadequate
                          and have not prevented or remedied erosion problems. During a
                          tour of the mill site in September 2003, we noted that the walking
                          path had been washed out in several locations. Topsoil, placed
                          throughout the mill site to prevent exposure to various
                          contaminated areas, was giving way to widespread rivulets
                          reaching depths of over 12 inches (Figure 1). To help prevent
                          further damage, the Department advised Monticello to add
                          additional topsoil, fill, and re-grade portions of the site that were of
                          immediate concern.




                                                 Figure 1: Erosion at the mill site



______________________________________________________________________

Page 2                                                                          Details of Finding
______________________________________________________________________

                     While the Department took action to correct erosion problems of
                     immediate concern that had not been adequately addressed by the
                     City, it did not ensure that the City retained funds provided under
                     the agreement that were needed for long-term maintenance. In
                     executing the agreement, the Department provided a majority of
                     the $6.8 million for mill site restoration activities prior to the
                     commencement of work. The City intermingled the funds with its
                     General Fund and used $2.5 million to pay for restoration work.
                     Subsequently, the City also began using funds provided by the
                     Department for other public works projects. Ultimately, the City
                     used approximately $3.2 million to expand its existing 9-hole golf
                     course located across the street from the mill site and
                     approximately $1.1 million to expand and improve its public water
                     supply system. With virtually all cooperative agreement funds
                     now spent, the City does not have funds readily available for
                     needed maintenance and will have to rely on its General Fund to
                     correct current and future mill site deficiencies.

                     Additionally, the City's goal of converting the mill site into a
                     public park – an end-use that should have encouraged long-term
                     maintenance of the site – was not fully realized. Specifically, no
                     signs were erected to indicate that the land was available for public
                     use – a requirement established in the land transfer documents –
                     and the grounds were not well maintained. When we visited the
                     site, the gravel walking path was overgrown with weeds (Figure 2),
                     and the City had removed previously placed picnic tables. At one
                     point, the City used a portion of the site to store pipes and
                     construction debris.




                                    Figure 2: Walking path at the mill site.




______________________________________________________________________

Page 3                                                                     Details of Finding
______________________________________________________________________


Cooperative          We concluded that these problems occurred, in large part, because
Agreement            the Department did not properly structure and did not require
                     compliance with certain terms of the cooperative agreement.

                                         Structure of the Agreement

                     According to the Department, it considered the agreement to be a
                     fixed-price contract with the City. However, the structure of the
                     agreement contained provisions that were inconsistent with fixed-
                     price instruments. For example, under a fixed-price contract there
                     is typically no review for the allowability of incurred costs. In
                     spite of the Department's intent, throughout the agreement there
                     are several sections which state that the City will only be
                     reimbursed for allowable costs.


                                      Compliance with Cost Provisions

                     The Department also did not implement the necessary controls to
                     ensure that allowable cost provisions established by the agreement
                     were actually followed by the City. According to the agreement,
                     the City would only be reimbursed after it had incurred costs to
                     accomplish the goals of the agreement. However, the Department
                     did not actively enforce these provisions. In particular, the
                     Department chose to provide the City with over 90 percent of the
                     funding at the beginning of the project before work began. Such
                     action effectively prohibited the Department from
                     contemporaneous enforcement of the terms of the agreement that
                     required costs only be incurred and reimbursed for allowable
                     expenses associated with the goals of the agreement.

                     Even when the Department became aware that the City was
                     expending funds for projects not contemplated by the agreement,
                     program officials did not take action to review expenditures for
                     allowability. In October 2002, after restoration work on the mill
                     site had been completed, a certified public accounting (CPA) firm
                     auditing the City's records questioned the propriety of the City
                     using restoration funds for unrelated projects. In spite of this
                     notification, the Department did not take action to ensure that the
                     City's expenditures were reviewed for allowability. To the
                     contrary, the Department essentially agreed with the practice by
                     notifying the CPA firm that the City could use the funds at its
                     discretion provided it maintained the site. Project managers
                     explained that they took this approach because they considered the
                     agreement to be a firm fixed-price arrangement. Thus, the



Page 4                                                              Details of Finding
______________________________________________________________________

                     Department was more concerned with the City restoring and
                     maintaining the site and less concerned about how the funds were
                     being spent.

                     The importance, however, of ensuring compliance with the
                     allowable cost provisions of the agreement crystallizes when issues
                     related to one of the primary drivers for permitting the City to
                     perform the work – assumed significant cost savings – are closely
                     examined. In particular, program officials based their assumption
                     regarding savings on an $11.3 million cost estimate prepared in
                     January 1999. Since remediation of the mill site had not been
                     completed at the time the estimate was prepared, there was a large
                     degree of uncertainty related to technical requirements for the
                     restoration and the ultimate cost. For example, required fill
                     quantities, elevations, and final alignment of a creek were
                     unknown.

                     The January 1999 conceptual restoration estimate also was a
                     significant increase over the $2.13 million restoration estimate
                     included in the Final Remedial Investigation/Feasibility Study for
                     the Monticello Mill Site. Nevertheless, the Department chose to
                     rely on the estimate prepared by its management and operating
                     (M&O) contractor and calculated that the cost of having the City
                     perform the work would reduce outlays by approximately
                     $4.5 million. The opportunity to resolve uncertainties associated
                     with the M&O prepared estimate was lost when the Department
                     did not review the costs as they were incurred during restoration
                     activities.


Remediation Costs    As a consequence of the factors noted above, the Department
                     incurred $4.3 million in costs for which the Government received
                     no direct benefit. In the situation in which the Department now
                     finds itself, it may be forced to spend additional funds to control
                     erosion at the mill site. Even though the Department correctly
                     indicates that the City is liable for maintaining the site in
                     perpetuity, the City has not fully corrected known problems and its
                     fiscal ability to do so in the future is uncertain. Since virtually all
                     funds provided by the Department have been expended, the City
                     also must rely solely on its general fund to correct existing and
                     future problems – a potentially significant challenge for a small
                     municipality. Unless continuing erosion problems are rectified, the
                     EPA also has indicated that fines of $5,000 per week could
                     potentially be assessed against the Department.




Page 5                                                                Details of Finding
______________________________________________________________________


RECOMMENDATIONS      To address the project management, funding, and environmental
                     issues discussed in this report, we recommend that the Director,
                     OLM:

                        1. Ensure that cooperative agreements used for future mill site
                           restoration activities are clearly structured and complied
                           with to protect the Department's interest;

                        2. Develop and implement an erosion abatement and control
                           plan at the Monticello Mill Site;

                        3. Seek recovery of the Department's funds spent for recent
                           erosion control efforts from the City; and,

                        4. Coordinate with the National Park Service to ensure that
                           the mill site is adequately maintained for public use.


MANAGEMENT           The Director, OLM, agreed with recommendations 2, 3, and 4
REACTION             but disagreed with recommendation 1 and several of the
                     conclusions reached. In response to recommendation 1,
                     management stated that it is founded upon the auditors'
                     misperception of the contract arrangement versus fact. OLM
                     stated that the report does not fully consider the cooperative
                     agreement as envisioned, written, and administered. The
                     Department's approach to the agreement was to engage the City in
                     a "fixed price" arrangement to complete mill site restoration, city
                     street repair, and purchase supplemental equipment. This strategy
                     allowed the City the flexibility to meet Department regulatory
                     requirements and also meet their recreational needs.

                     Even though not specifically spelled out in the agreement,
                     management also asserted that the approach provided assurance
                     that the City, and not the Department, would be responsible for all
                     future maintenance of the site. While not attaching a specific
                     dollar amount, management implied that funds provided to the City
                     that were over and above the actual cost of restoration could be
                     attributed to the City's assumption of the legal responsibility to
                     maintain the site in perpetuity.




______________________________________________________________________

Page 6                                           Recommendations and Comments
______________________________________________________________________


AUDITOR              Contrary to management's assertion, our report fully considered
COMMENTS             the terms and intent of the agreement. As detailed in our report,
                     we noted that the provisions of the agreement were not consistent
                     with those typical of fixed price contracts.

                     While the Department argued that the approach chosen resulted in
                     significant savings, we noted that the estimate prepared by the
                     previous contractor was uncertain. We found no evidence that this
                     estimate was independently validated and noted that it had
                     increased substantially over earlier recorded estimates. Even given
                     the assertions that savings were achieved, such savings do not
                     obviate the need to ensure that funds are expended only for items
                     related to the restoration. Had program officials been more
                     proactive in this respect, they may have been able to prevent the
                     expenditure of an additional $4.3 million. At the least, officials
                     may have been able to ensure that the City maintained adequate
                     reserve funds to comply with its obligation to properly maintain
                     the site.

                     As indicated by the Department, while the City may have a legal
                     obligation to maintain the site, its performance in that area has not
                     been fully satisfactory. Both EPA and the Department recognized
                     this fact and have attempted to compel the City to correct known
                     problems. While the City performed some work, past problems
                     may be indicative of a need for the Department to intervene and
                     perform remedial repairs in the future. Based on this demonstrated
                     lack of past performance, the expectation that the Department has
                     been relieved of the responsibility for maintenance of the site may
                     not be realizable.

                     Management's concurrence with and proposed corrective actions
                     for recommendations 2, 3, and 4 is considered responsive.




______________________________________________________________________

Page 7                                                                      Comments
APPENDIX

OBJECTIVE     The objective of this audit was to determine whether the
              Department effectively monitored and controlled the restoration of
              the Monticello Mill Site.

SCOPE         The audit was performed from September 8, 2003, to April 5,
              2004, at the Grand Junction Projects Office in Grand Junction,
              Colorado, and in Monticello, Utah. The scope of this audit was
              limited to activities pertaining to the "Restoration of Mill Site
              Property" in the Cooperative Agreement's Statement of Joint
              Objectives (Agreement No. DE-FC13-99GJ79485).

METHODOLOGY   To accomplish the audit objective, we:
              •    Obtained and reviewed planning documents for restoration
                   activities;

              •    Visited the Monticello Mill Site;

              •    Researched Federal and Departmental regulations;

              •    Reviewed the Cooperative Agreement between the
                   Department and the City for the restoration of the uranium
                   mill site;

              •    Assessed internal controls and performance measures
                   established under the Government Performance and Results
                   Act of 1993; and,

              •    Interviewed key personnel in the Grand Junction Projects
                   Office.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Specifically, we assessed controls with respect to the Department's
              oversight over cooperative agreements. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did
              not rely on computer-generated data to accomplish our audit
              objective.

              An exit conference was held with the Manager of the Grand
              Junction Projects Office on October 13, 2004. In response to a
              draft of our report, management provided comments that have been
              addressed and summarized in the body of the report. Management


Page 8                                   Objective, Scope, and Methodology
         was afforded the opportunity to review the revisions to the report
         but elected to not provide additional comments.




Page 9                              Objective, Scope, and Methodology
                                                                    IG Report No. DOE/IG-0655

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
